HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of AdminaStar Federal,"(A-05-02-00086)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of AdminaStar Federal," (A-05-02-00086)
March 26, 2003
Complete
Text of Report is available in PDF format (407 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare
Skilled Nursing Facility (SNF) payments contained in our database of payments
made under the administrative responsibility of AdminaStar Federal (AdminaStar).  Our
review of the database estimated that $25.3 million of ineligible SNF payments
were made under the administrative responsibility of AdminaStar during calendar
years 1997 through 2001.  The overpayments occurred because of the absence
of an automated cross-check, within the Centers for Medicare and Medicaid Services'
Common Working File and the Fiscal Intermediarys claims processing systems,
verifying that a three consecutive day inpatient hospital stay occurred prior
to SNF admission.  AdminaStar agreed with the findings and recommendations
presented in the report and will adjust all claims paid incorrectly and pursue
recovery of the dollars associated with the claims.